                      U.S. Department of Agriculture

                         Office of Inspector General
                          Financial & IT Operations




            Audit Report

Food, Nutrition, and Consumer Services’
         Financial Statements
          for Fiscal Year 2005




                             Report No. 27401-1-FM
                                    November 2005
                UNITED STATES DEPARTMENT OF AGRICULTURE
                            OFFICE OF INSPECTOR GENERAL

                                Washington, D.C. 20250


November 8, 2005



REPLY TO
ATTN OF:      27401-1-FM

TO:           Eric Bost
              Under Secretary
               for Food, Nutrition, and Consumer Services

ATTN:         Gary Maupin
              Deputy Administrator
              Food, Nutrition, and Consumer Services

FROM:         Robert W. Young       /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Food, Nutrition, and Consumer Services’ Financial Statements
              for Fiscal Year 2005


This report presents the results of our audit of the Food, Nutrition, and Consumer
Services’ (FNCS) financial statements for the fiscal year ending September 30,
2005. The report contains an unqualified opinion and the results of our
assessment of FNCS’ internal control structure and compliance with laws and
regulations.

Based on the information provided during the audit, we are making no
recommendations within this report.

We appreciate the courtesies and cooperation extended to us during the audit.
Executive Summary
Food, Nutrition, and Consumer Services’ Financial Statements for Fiscal Year
2005 (Audit Report No. 27401-1-FM)

Purpose            Our audit objectives were to determine whether (1) the consolidated
                   financial statements present fairly, in all material respects, in
                   accordance with generally accepted accounting principles, the assets,
                   liabilities, and net position, net costs, changes in net position, budgetary
                   resources, and reconciliation of net costs to budgetary obligations; (2)
                   the internal control objectives were met; and (3) Food, Nutrition, and
                   Consumer Services (FNCS) complied with laws and regulations for
                   those transactions and events that could have a material effect on the
                   consolidated financial statements.

                   We conducted our audit at FNCS’ national office in Alexandria,
                   Virginia. We also performed site visits at selected regional offices.

Results in Brief    In our opinion, FNCS consolidated financial statements for fiscal year
                    2005, including the accompanying notes, present fairly in all material
                    respects, the assets, liabilities, and net position as of September 30,
                    2005; and its net costs, changes in net position, budgetary resources,
                    and reconciliations of net costs to budgetary obligations for the year
                    then ended, in conformity with accounting principles generally
                    accepted in the United States of America.

                    In our Report on Internal Control Over Financial Reporting, we
                    reported that improvements were needed in FNCS’ information
                    technology (IT) security and controls.

                    In our Report on Compliance with Laws and Regulations, we reported
                    that the core financial management system is in substantial compliance
                    with the Federal Financial Management Improvement Act of 1996,
                    except for deficiencies noted in IT security and controls.

                    During a major portion of fiscal year 2005, we noted that significant
                    deficiencies existed in IT security and controls. Specifically, we found
                    that IT security controls were not adequately secured and sufficiently
                    restricted within the Integrated Program Accounting System (IPAS)
                    and General Support System (GSS). FNCS also had not instituted a
                    systematic methodology to monitor the effectiveness of security
                    controls when implemented.

Key
Recommendations     During the course of the audit, FNCS effectively implemented
                    corrective action as IT weaknesses were brought to its attention. We
USDA/OIG-AUDIT/27401-1-FM                                                                         Page i
                   verified this activity as part of our audit. Therefore, we are making no
                   recommendations in this report.

Agency Position    FNCS officials concurred with our findings as detailed in this report
                   and took immediate actions to secure its IPAS and GSS from threats to
                   data integrity. As of September 30, 2005, FNCS had either resolved
                   the deficiencies or initiated adequate corrective actions to mitigate the
                   weakness.

OIG Position       While these deficiencies existed during the major portion of the fiscal
                   year, as of September 30, 2005, FNCS had taken sufficient actions so
                   that IT security was no longer a material weakness.




USDA/OIG-AUDIT/27401-1-FM                                                                  Page ii
Abbreviations Used in This Report


FFMIA             Federal Financial Management Improvement Act
FNCS              Food, Nutrition, and Consumer Services
GSS               General Support System
IPAS              Integrated Program Accounting System
IT                Information Technology
OMB               Office of Management and Budget
RSSI              Required Supplemental Stewardship Information




USDA/OIG-AUDIT/27401-1-FM                                         Page iii
Table of Contents

Executive Summary ....................................................................................................................... i

Report of the Office of Inspector General .................................................................................. 1

Report of the Office of Inspector General on Internal Control Over Financial Reporting... 3

Report of the Office of Inspector General on Compliance with Laws and Regulations ........ 5

Findings.......................................................................................................................................... 7

    Section 1. Internal Control Over Financial Reporting – Material Weakness ................. 7

         Finding 1             Controls Over Information Technology (IT) Systems Security Needed
                               Strengthening ................................................................................................ 7

    Section 2. Compliance With Laws and Regulations ........................................................ 10

         Finding 2             Substantial Compliance With FFMIA Requirements ................................. 10

Exhibit A – Agency Response .................................................................................................... 11

Exhibit B – Consolidated Financial Statements....................................................................... 12




USDA/OIG-AUDIT/27401-1-FM                                                                                                                         Page iv
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250



Report of the Office of Inspector General

To:    Eric Bost
       Under Secretary
        for Food, Nutrition, and Consumer Services

We have audited the accompanying consolidated balance sheet of the Food, Nutrition, and
Consumer Services (FNCS) as of September 30, 2005, and the related consolidated statements of
net cost, changes in net position, and financing, and the combined statement of budgetary
resources (hereinafter referred to as the “consolidated financial statements”) for the fiscal year
then ended. The consolidated financial statements are the responsibility of management. Our
responsibility is to express an opinion on the consolidated financial statements based on our
audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements.”
Those standards and OMB Bulletin No. 01-02 require that we plan and perform the audit to
obtain reasonable assurance that the consolidated financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the consolidated financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall consolidated financial statement presentation. We believe that our audit provides a
reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of FNCS as of September 30, 2005; and its net cost,
changes in net position, reconciliation of net cost to budgetary obligations, and budgetary
resources for the year then ended, in conformity with accounting principles generally accepted in
the United States of America.

The information in the Management’s Discussion and Analysis is not a required part of the
consolidated financial statements, but is supplemental information required by accounting
principles generally accepted in the United States of America or by OMB Circular No. A-136,
“Financial Reporting Requirements.” We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. We did not audit this information and, accordingly, we express
no opinion on it. FNCS is presenting its consolidated financial statements, along with required




USDA/OIG-AUDIT/27401-1-FM                                                                        Page 1
supplemental stewardship information and a (reduced in scope) Management’s Discussion and
Analysis per a waiver received from OMB allowing this limited presentation for fiscal year
2005.

We have also issued reports on our consideration of FNCS internal controls over financial
reporting and its compliance with certain provisions of laws and regulations. These reports are
an integral part of an audit performed in accordance with Government Auditing Standards, and,
in considering the results of the audit; these reports should be read in conjunction with this
report. For internal control over financial reporting, we identified significant deficiencies in
information technology security controls that existed during a major portion of the fiscal year
under audit. As of September 30, 2005, however, we determined that these deficiencies were no
longer material. Our report on compliance with laws and regulations discusses the impact of
these deficiencies on our assessment of FNCS compliance with the Federal Financial
Management Improvement Act.

This report is intended solely for the information of the management of FNCS, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


/s/

ROBERT W. YOUNG
Assistant Inspector General
for Audit


November 2, 2005




USDA/OIG-AUDIT/27401-1-FM                                                                      Page 2
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250



Report of the Office of Inspector General on
Internal Control Over Financial Reporting

To:    Eric Bost
       Under Secretary
        for Food, Nutrition, and Consumer Services

We have audited the accompanying consolidated balance sheet of the Food, Nutrition, and
Consumer Services (FNCS) as of September 30, 2005, and the related consolidated statement of
net cost, changes in net position, and financing, and the combined statement of budgetary
resources (hereinafter referred to as the “consolidated financial statements,”) and have issued our
report thereon dated November 2, 2005. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-02, “Audit
Requirements for Federal Financial Statements.”

In planning and performing our audit, we considered internal control over financial reporting by
obtaining an understanding of the internal controls, determining whether the internal controls had
been placed in operation, assessing control risk, and performing tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements. We limited our internal control testing to those controls necessary to
achieve the objectives described in OMB Bulletin No. 01-02 and Government Auditing
Standards. We did not test all internal controls as defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our audit was not to provide assurance on FNCS internal
control. Consequently, we do not provide an opinion on internal control over financial reporting.

Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation that, in our judgment, could adversely affect the agency’s ability to record, process,
summarize, and report financial data consistent with the assertions by management in the
consolidated financial statements. Material weaknesses are reportable conditions in which the
design or operation of one or more internal control components do not reduce to a relatively low
level the risk that misstatements, in amounts that would be material in relation to the
consolidated financial statements being audited, may occur and not be detected within a timely
period by employees in the normal course of performing their assigned functions. Because of
inherent limitations in any internal control, misstatements due to error or fraud may occur and
not be detected.


USDA/OIG-AUDIT/27401-1-FM                                                                          Page 3
We noted certain matters described in the Findings, Sections 1 and 2 of this report, involving the
internal control over financial reporting that we consider to be significant deficiencies in
information technology security and controls which existed during a major portion of the fiscal
year under audit. As of September 30, 2005, however, we determined these deficiencies were no
longer material.

Additional Other Procedures

As required by OMB Bulletin No. 01-02, we considered FNCS internal control over Required
Supplemental Stewardship Information (RSSI) by obtaining an understanding of the internal
control, determining whether these internal controls had been placed in operation, assessing
control risk, and performing tests of controls. Our procedures were not designed to provide
assurance on internal control over such RSSI; accordingly, we do not provide an opinion on such
controls.

As further required by OMB Bulletin No. 01-02, with respect to internal control related to
performance measures, FNCS is presenting its consolidated financial statements, along with
RSSI and a (reduced in scope) Management’s Discussion and Analysis per a waiver received
from OMB allowing this limited presentation for fiscal year 2005. The Management’s
Discussion and Analysis does not include performance measures, and our procedures were not
designed to provide assurance on internal control over reported performance measures;
accordingly, we do not provide an opinion on such controls.

This report is intended solely for the information and use of the management of FNCS, OMB,
and Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit


November 2, 2005




USDA/OIG-AUDIT/27401-1-FM                                                                        Page 4
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250



Report of the Office of Inspector General on
Compliance with Laws and Regulations

To:    Eric Bost
       Under Secretary
        for Food, Nutrition, and Consumer Services

We have audited the consolidated balance sheets of the Food, Nutrition, and Consumer Services
(FNCS) as of September 30, 2005, and the related consolidated statement of net cost, changes in
net position, and financing, and the combined statement of budgetary resources (hereinafter
referred to as the “consolidated financial statements,”) and have issued our report thereon dated
November 2, 2005. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained
in Government Auditing Standards issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 01-02, “Audit Requirements for Federal
Financial Statements.”

The management of FNCS is responsible for complying with laws and regulations applicable to
it. As part of obtaining reasonable assurance about whether the consolidated financial statements
are free of material misstatement, we performed tests of FNCS compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 01-02, including certain
requirements referred to in the Federal Financial Management Improvement Act of 1996
(FFMIA). We limited our tests of compliance to the provisions described in the preceding
sentence and did not test compliance with all laws and regulations applicable to FNCS.
However, providing an opinion on compliance with laws and regulations was not an objective of
our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance disclosed no instances of noncompliance with other laws
and regulations discussed in the second paragraph of this report, exclusive of FFMIA, that are
required to be reported under Government Auditing Standards and OMB Bulletin No. 01-02.




USDA/OIG-AUDIT/27401-1-FM                                                                 Page 5
This report is intended solely for the information and use of the management of FNCS, OMB,
and Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit


November 2, 2005




USDA/OIG-AUDIT/27401-1-FM                                                          Page 6
Findings
Section 1.        Internal Control Over Financial Reporting – Material Weakness

                                Material weaknesses are reportable conditions in which the design or
                                operation of one or more internal control components do not reduce to
                                a relatively low level the risk that misstatements, in amounts that would
                                be material in relation to the consolidated financial statements being
                                audited, may occur and not be detected within a timely period by
                                employees in the normal course of performing their assigned functions.
                                Because of inherent limitations in any internal control, misstatements
                                due to error or fraud may occur and not be detected. We believe that
                                the finding discussed in this section was a material internal control
                                weakness during a major portion of fiscal year 2005.


Finding 1                       Controls Over Information Technology (IT) Systems Security
                                Needed Strengthening

                                During the major portion of fiscal year 2005, for Food, Nutrition, and
                                Consumer Services’ (FNCS) IT security controls neither adequately
                                secured nor sufficiently restricted access to FNCS Integrated Program
                                Accounting System (IPAS) 1 and General Support System (GSS). 2
                                Although Federal and departmental guidance are available, we found
                                FNCS had not put in place all of the required controls, due to a variety
                                of circumstances detailed below. They also had not instituted a
                                systematic way to monitor the effectiveness of the controls they had
                                implemented. As a result, the agency could not be confident of the
                                integrity of its IPAS and GSS data.

                                Specifically, we found the following.

                                 •    FNCS did not do a quarterly review of its key card access list to
                                      make sure that only current employees and contractors had access
                                      to its computer room. As a result, FNCS put critical applications at
                                      increased risk of being accessed, stolen, destroyed or modified.

                                 •    FNCS did not have adequate access controls over IPAS. Separated
                                      employees had access to IPAS, contractors shared administrative
                                      identifications, and there was no security logging for both the

1
  The Integrated Program Accounting System (IPAS) is an Oracle-based application used for day-to-day recording of accounting
transactions.
2
  FNCS’ General Support System is a Window’s-based network providing initial access control and management of FNCS’
applications. Wide area network connections allow FNCS regional offices to access IPAS application and other FNCS resources.
USDA/OIG-AUDIT/27401-1-FM                                                                                          Page 7
                       IPAS and the underlying database. FNCS had not considered these
                       issues as part of their overall security strategy. As a result, FNCS
                       IPAS was vulnerable to undetected unauthorized access and
                       changes to critical data.

                   •   FNCS had not tested a critical contingency plan component for
                       GSS. While the agency conducted a full contingency test on IPAS
                       in fiscal years 2004 and 2005, FNCS had not performed any testing
                       of the GSS files. This occurred because FNCS did not enforce its
                       own regulations requiring that the IT staff document that quarterly
                       testing was completed and submitting proof of testing to the
                       Headquarter IT staff. Without some assurance that the backup
                       process is functioning properly, FNCS may not be properly
                       prepared for a disruption or loss of data for the GSS.

                   •   FNCS did not follow procedures, which require monthly
                       vulnerability scans to be performed and vulnerabilities corrected
                       within 30 days. FNCS conducted the scans and distributed the list
                       of detected vulnerabilities to the appropriate personnel for
                       correction; but, it did not establish timeframes for completing
                       corrective actions. Left uncorrected, these vulnerabilities could
                       allow unauthorized access to FNCS network, thereby jeopardizing
                       the integrity of $47 billion in critical financial and program data.

                   •   FNCS employees and contractors with the ability to bypass
                       security controls were given access to sensitive IT applications
                       without required security clearances. FNCS submitted clearance
                       requests for these personnel but did not restrict their access
                       pending the results, thereby placing sensitive data at risk of theft,
                       modification, or destruction.

                   •   FNCS did not recertify its IPAS within the 3 year requirement.
                       Further, the system accreditations for both IPAS and GSS
                       conducted in 2002 did not include the required independent testing
                       of system controls and official acceptance of risk. While FNCS did
                       recertify its systems, it did not completely follow accreditation
                       requirements in effect at the time, or ensure that reaccreditations
                       occurred timely. As a result, FNCS could not be completely
                       assured that its systems had the controls necessary to maintain the
                       systems’ confidentiality, integrity, and availability.

                  FNCS officials generally concurred with our findings. At the
                  conclusion of the IT fieldwork in July 2005, FNCS took immediate
                  action to secure IPAS and GSS from threats to data integrity. FNCS
                  (1) tightened physical access to its computer room; (2) strengthened
                  IPAS access controls for separated employees and contractors and
USDA/OIG-AUDIT/27401-1-FM                                                            Page 8
                  instituted security logging procedures for IPAS and the underlying
                  database; (3) implemented controls to ensure all GSS tapes were tested
                  to guarantee their usability in the event of a disaster; and (4) mitigated
                  vulnerabilities the Office of Inspector General identified in its network
                  and systems, as well as, strengthened oversight of its monthly scanning
                  processes and the timely correction of critical vulnerabilities. FNCS is
                  also in the process of obtaining security clearances for FNCS
                  employees and contractors with access to sensitive IT applications and
                  data and obtaining reaccreditations for both its IPAS and GSS. While
                  these weaknesses existed during a major portion of the fiscal year, as of
                  September 30, 2005, FNCS had either resolved the deficiencies or
                  initiated corrective actions to where IT security is no longer a material
                  weakness.




USDA/OIG-AUDIT/27401-1-FM                                                            Page 9
Section 2.   Compliance With Laws and Regulations

                     The management of FNCS is responsible for complying with laws and
                     regulations applicable to it. As part of obtaining reasonable assurance
                     about whether the consolidated financial statements are free of material
                     misstatement, we performed tests of FNCS compliance with certain
                     provisions of laws and regulations, noncompliance with which could
                     have a direct and material effect on the determination of the
                     consolidated financial statement amounts, and certain provisions of
                     other laws and regulations specified in OMB Bulletin No. 01-02,
                     including certain requirements referred to in the Federal Financial
                     Management Improvement Act of 1996 (FFMIA).


Finding 2            Substantial Compliance With FFMIA Requirements

                     The primary purpose of FFMIA is to ensure that agencies’ financial
                     management systems routinely generate timely, accurate, and useful
                     information. With such information, Government leaders are better
                     positioned to invest resources, reduce costs, oversee programs and hold
                     agency managers accountable for the way they run Government
                     programs. Under FFMIA, agencies are required to annually assess
                     whether their financial management systems comply substantially with
                     (1) Federal Financial Management System requirements, (2) applicable
                     Federal Accounting Standards, and (3) the U.S. Standard General
                     Ledger at the transaction level. In addition, the Federal Information
                     Security Management Act requires each agency to report significant
                     information security deficiencies, relating to financial management
                     systems, such as those detailed in Finding 1 of this report, as a lack of
                     substantial compliance under FFMIA.

                     While these weaknesses existed during a major portion of our audit,
                     FNCS took immediate and pervasive actions toward securing both
                     IPAS and GSS systems from threats to their data integrity. As of
                     September 30, 2005, FNCS had resolved or initiated corrective actions
                     on substantially all of the deficiencies noted to where IT security is no
                     longer a material weakness. As a result, FNCS was not required to
                     report substantial noncompliance with FFMIA as of September 30,
                     2005, and submit a remediation plan.




USDA/OIG-AUDIT/27401-1-FM                                                            Page 10
Exhibit A – Agency Response




USDA/OIG-AUDIT/27401-1-FM     Page 11
Exhibit B – Consolidated Financial Statements




           U.S. Department of Agriculture

   Food, Nutrition, and Consumer Services

                      Fiscal Year 2005

                 (PREPARED BY FNCS)




USDA/OIG-AUDIT/27401-1-FM                   Page 12
    FOOD, NUTRITION,      AND   CONSUMER SERVICES - MD&A




MANAGEMENT DISCUSSION AND ANALYSIS (MD&A)
INTRODUCTION

The Food, Nutrition, and Consumer Services (FNCS) is the mission area that combines the Food and
Nutrition Service (FNS) and the Center for Nutrition Policy and Promotion (CNPP). FNS was
established August 8, 1969, by Secretary's Memorandum No. 1659 and Supplement 1 pursuant to the
authority contained in 5 U.S.C. 301 and the Reorganization Plan No. 2 of 1953.

FNCS is the Federal entity responsible for managing the domestic nutrition assistance programs.
FNS’ mission is to increase food security and reduce hunger in partnership with cooperating
organizations by providing children and low-income individuals access to food, a healthful diet, and
nutrition education in a manner that supports American agriculture and inspires public confidence.

The U.S. Department of Agriculture is the lead Federal agency in human nutrition, charged with
providing research-based human nutrition education and information to all American consumers. The
26-member staff of the CNPP links nutrition research to consumers through an integrated program of
nutrition education, promotion, and research. CNPP translates nutrition guidance into consumer-
oriented promotion programs to improve the dietary behavior of all Americans. CNPP serves a
diverse consumer base including customers of food and nutrition assistance programs. CNPP also
helps devise better cost-effective strategies to target nutrition programs to different customers by
analyzing consumer dietary needs, characteristics, behaviors, and lifestyles.

Over the past half-century – beginning with the National School Lunch Program in 1946 – the Nation
has gradually built an array of nutrition assistance programs designed to help the most vulnerable
populations meet their food needs. Taken together, the current programs form a nationwide safety net
supporting low-income families and individuals in their efforts to escape food insecurity and hunger
and achieve healthy, nutritious diets. Currently, the programs administered by FNCS touch the lives
of approximately one in five Americans over the course of a year.

DESCRIPTIONS OF PROGRAMS:

The nutrition assistance programs described below work both individually and in concert with one
another to improve the Nation’s nutrition and health by improving the diets of children and low-
income households.

•     Food Stamp Program (FSP): Authorized by the Food Stamp Act of 1977, the FSP serves as the
      centerpiece and primary source of nutrition assistance for over 24 million low-income people. It
      enables participants, over 50 percent of whom are children, to improve their diets by increasing
      food purchasing power using benefits that are redeemed at retail grocery stores across the
      country. State agencies are responsible for the administration of the program according to
      national eligibility and benefit standards set by Federal law and regulations. Benefits are 100
      percent Federally-financed, while administrative costs are shared between the Federal and State
      governments.

      The FSP provides the basic nutrition assistance benefit for low-income people in the United
      States while the other FNCS programs supplement the program with benefits targeted to special
      populations, dietary needs and delivery settings. (Puerto Rico, the Commonwealth of the
      Northern Mariana Islands, and American Samoa receive grant funds with which to provide food
      and nutrition assistance in lieu of the FSP.)

                                                    1
    FOOD, NUTRITION,        AND   CONSUMER SERVICES - MD&A




•     Food Distribution Program on Indian Reservations (FDPIR): The Food Stamp Act of 1977
      authorized the distribution of agricultural commodities to eligible needy persons residing on or
      near Indian reservations. FDPIR serves as an alternative to the FSP for Indian households on or
      near reservations. Indian Tribal Organizations (ITOs) that operate the program are responsible
      for certifying recipient eligibility, nutrition education, local warehousing and transportation of
      commodities, distribution of commodities to recipient households, and program integrity. The
      Federal Government pays 100 percent of the cost of commodities distributed through the
      program, as well as cash payments for administrative expenses.

•     Child Nutrition Programs (CNP): The National School Lunch (NSLP), School Breakfast (SBP),
      Special Milk (SMP), Child and Adult Care (CACFP), and Summer Food Service (SFSP)
      Programs provide reimbursement to State and local governments for nutritious meals and snacks
      served to approximately 30 million children in schools, child care institutions, adult day care
      centers, and after-school care programs. FNCS provides cash and commodities on a per-meal
      basis to offset the cost of food service at the local level as well as offset a significant portion of
      State and local administrative expense and provides training, technical assistance, and nutrition
      education. Payments are substantially higher for meals served free or at a reduced price to
      children from low-income families.

•     Special Supplemental Nutrition Program for Women, Infants and Children (WIC): WIC
      addresses the special needs of at-risk, low-income pregnant, breastfeeding and postpartum
      women, infants and children up to five years of age. On a monthly basis, it provides over 7.9
      million participants with supplemental food packages targeted to their dietary needs, nutrition
      education, and referrals to a range of health and social services – benefits that promote a healthy
      pregnancy for mothers and a healthy start for their children. Appropriated funds are provided to
      States for food packages and nutrition services and administration for the program; States operate
      the program pursuant to plans approved by FNCS. WIC is augmented in some localities by the
      Farmers’ Market Nutrition Program, funded within the Commodity Assistance Program account,
      and authorized by the WIC Farmers’ Market Nutrition Act of 1992, which provides fresh produce
      to WIC participants.

•     The Emergency Food Assistance Program (TEFAP): This program distributes Federally-
      purchased commodities for use by emergency feeding organizations including soup kitchens,
      food recovery organizations, and food banks, in providing food assistance to the needy. TEFAP
      also provides administrative funds to defray costs associated with processing, repackaging,
      storage, and distribution of Federal and privately donated commodities. The allocation of both
      Federal commodities and administrative grants to States is based on a formula that considers the
      States’ unemployment levels and the number of persons with income below the poverty level.

•     The Commodity Supplemental Food Program (CSFP): This program provides foods purchased
      by USDA to low-income infants and children up to age six, low-income pregnant, postpartum and
      breastfeeding women, and to low-income senior citizens who are residing in approved project
      areas. In recent years, there has been a shift towards low-income elderly in this program; in FY
      2004, elderly participation comprised more than 88 percent of total participation. Foods are
      distributed through State agencies to supplement food acquired by recipients from other sources.
      The CSFP is operated as a Federal/State partnership under agreements between FNCS and State
      health care, agricultural or education agencies. Currently, 32 States, the District of Columbia,
      and two Indian reservations operate CSFP.



                                                      2
 FOOD, NUTRITION,        AND   CONSUMER SERVICES - MD&A



Federal nutrition assistance programs operate as partnerships between FNCS and the State and local
organizations that interact directly with program participants. States voluntarily enter into agreements
with the Federal Government to operate programs according to Federal standards in exchange for
program funds that cover all benefit costs, as well as a significant portion of administrative expenses.

Under these agreements, FNCS is responsible for implementing statutory requirements that set
national program standards for eligibility and benefits, providing Federal funding to State and local
partners, and monitoring and evaluating to make sure that program structures and policies are
properly implemented and effective in meeting program missions. State and local organizations are
responsible for delivering benefits efficiently, effectively, and in a manner consistent with national
requirements.

FNCS STAFF:

The public servants of FNCS are an important resource for advancing the key outcomes sought
through the nutrition assistance programs. The agency staff serves to ensure and leverage the
effective use of the other program appropriations.
FNCS staff is funded primarily out of the Nutrition Programs Administration account, which
represents approximately one-third of one percent of the total FNCS budget. The agency employment
level represents less than two percent of the total employment within USDA and is similarly a small
fraction of total State-level staff needed to operate the programs. The agency employs people from a
variety of disciplines, including policy and management analysts, nutritionists, computer and
communication experts, accountants, investigators, and program evaluators. Because of the small
size of the agency’s staff relative to the resources it manages, FNCS has created clear and specific
performance measures and must focus its management efforts in a limited number of high-priority
areas.
Program operations are managed through FNCS’ seven regional offices and 69 subordinate field
offices/satellite locations. A regional administrator directs each regional office. These offices
maintain direct contact with State agencies that administer the FNCS programs. The agency’s
regional offices also conduct on-site management reviews of State operations and monitor the
152,499 stores participating in the Food Stamp Program.

As of September 30, 2004, there were 1,425 full-time permanent and 69 part-time and temporary
employees in the agency. There were 547 employees in the Washington headquarters office, which
includes four food stamp compliance offices in Illinois, Texas, New Jersey, and Tennessee; one
computer support center in Minneapolis, Minnesota; and one administrative review office; and 947 in
the field, which includes seven regional offices and 69 field offices. The charts below display staff
year utilization and organizational structure.


                                      STAFF YEAR DISTRIBUTION
                                        (From All Sources of Funds)
                                                       2004           2005                   2005
 Project                                               Actual       Estimated    Change    Requested
 Food Stamp Program                                           69            68        0             68
 Child Nutrition Programs                                   140            164        0            164
 Nutrition Programs Administration                        1,261          1,230        0         1,230
 Center for Nutrition Policy and Promotion                    26            26        0             26
 Total Available                                          1,496          1,488        0         1,488




                                                    3
FOOD, NUTRITION,   AND   CONSUMER SERVICES - MD&A




                                     4
FOOD, NUTRITION,   AND   CONSUMER SERVICES - MD&A




                                     5
 FOOD, NUTRITION,         AND      CONSUMER SERVICES - MD&A




FINANCIAL STATEMENT HIGHLIGHTS

FNS performs the budgeting, accounting and funds control at the mission area level which includes
CNPP and FNS. CNPP is funded via administrative funds only in the NPA appropriation. The
accounting and reporting performed by FNS includes CNPP in its entirety.


BUDGETARY RESOURCES AND OUTLAYS
FNCS receives most of its funding from appropriations authorized by Congress that are administered
by the Treasury Department. Total resources consist of the balance at the beginning of the year,
appropriations received during the year, transfers, spending authority from offsetting collections and
other budgetary resources.
                                              (In millions)

                                                2005           2004           % Change
         Appropriations Received               47,398         42,592            11.3%
         Net Transfers                          5,168         4,715             9.6%
         Total Budgetary Resources             58,293         53,569            8.8%
         Obligations Incurred                  51,185         45,801            11.8%
         Outlays                               49,823         44,994            10.7%



ANALYSIS OF RESOURCES:

The FNCS experienced a significant increase in appropriations in fiscal year 2005. Of the $4.8
billion increase 84 % of the increase is attributable to growth in the Food Stamp Program, with 7%
attributable to the Child Nutrition Programs for meal services and higher food costs. Transfers from
customs receipts available under section 32 of the Child Nutrition Act of 1966 of $4.7 billion in FY
2004 increased to $5.2 billion in FY 2005.




                                                   6
 FOOD, NUTRITION,            AND   CONSUMER SERVICES - MD&A




BALANCE SHEET
Presented below are some key components of the FNCS Balance Sheet for comparison and analysis
                             CONDENSED BALANCE SHEET DATA

                                               (In millions)
                                                  2005          2004            % Change
         Fund Balance with Treasury              11,058         10,835             2.1%
         Accounts Receivable                      211            318              -33.6%
         General P P & E                           26             23              13.0%


         Accounts Payable                        3,230          2,510             28.7%
         Benefits                                  8              8                0.0%
         Other Liabilities                         59             77              -23.4%


         Unexpended Appropriations               8,056          8,580             -6.1%
         Cumulative Results of Operations         194            285              -31.9%



ACCOUNTS RECEIVABLE:
FNCS Accounts Receivable are with the Public. The decrease in accounts receivable is due in part to
increased collections and improvements in Food Stamp payment accuracy which results in reduced
claims established.
As of September 30, 2005 $179 million of the balance is amounts owed by Food Stamp recipients.
Grantee receivables total $7.4 million. Retailer/Wholesaler amounts owed for program violations are
$25 million.
GENERAL PROPERTY, PLANT AND EQUIPMENT, NET (PP&E):
Property and equipment are depreciated over their useful economic lives, which average 5-10 years,
using the straight –line method. FNCS’ capitalization threshold for property and equipment for FY
2005 is $25 thousand. FNCS owns no buildings or land.
LIABILITIES:
Liabilities represent the amount of monies or other resources that are likely to be paid as a result of a
transaction or event that has already occurred. However, no liability can be paid absent an
appropriation. Where an appropriation has not been enacted, liabilities are considered not covered by
budgetary resources.
ACCOUNTS PAYABLE:
The majority of FNCS accounts payable of $3.2 billion are to the public for grants and benefits.
OTHER:
Of the $59 million and $77 million in other liabilities in Fiscal Year 2005 and 2004 respectively, $22
million and $33 million respectively, is amounts payable to the U.S. Department of Treasury for

                                                    7
 FOOD, NUTRITION,         AND   CONSUMER SERVICES - MD&A



fines, interest and penalties. This amount decreased in FY 2005 because of increased collections and
improvements in the Food Stamp payment accuracy which results in reduced claims establishment.

NET COST OF OPERATIONS
                           CONDENSED STATEMENT OF NET COST
                                             (In millions)

                                                      2005        2004            % Change

             Gross Cost                               51,605      45,184           14.2%

             Less: Earned Revenue                      29          18              61.1%

             Net Cost                                 51,576      45,166           14.2%



             Net Cost of Operations                   51,576      45,166           14.2%



FNCS Net Cost of Operations totaled $51.6 billion and $45.2 billion for fiscal years 2005 and 2004,
respectively. Grants comprise the largest portion of FNCS costs, with $50 billion and $44 billion in
costs for 2005 and 2004, respectively.
The increase in earned revenue is attributable to increase participation by California in the State
Option Food Stamp Program. This program was enacted in 1997 and allows States to issue Food
Stamp benefits using the FNCS infrastructure. Prior to issuance, States are required to remit payment
to FNCS for the amount of the benefits issued as well as reimburse FNCS for the cost of redeeming
benefits.




                                                  8
                Food, Nutrition, And Consumer Services
                             Balance Sheet
                             As of September 30, 2005
                                         (millions)

Assets:
Intragovernmental:
   Fund Balance with Treasury (Note 3)                             $11,058
   Other (Note 6)                                                     $252
Total Intragovernmental                                            $11,310

Accounts Receivable, Net (Note 4)                                     $211
General Property, Plant, and Equipment, Net (Note 5)                   $26
Total Assets                                                       $11,547

Liabilities:
Intragovernmental:
   Accounts Payable                                                    $2
   Other (Note 8)                                                     $27
Total Intragovernmental                                               $29

Accounts Payable                                                    $3,228
Federal Employee and Veterans Benefits                                  $8
Other (Note 8)                                                         $32
Total Liabilities                                                   $3,297

Net Position:
  Unexpended Appropriations                                         $8,056
  Cumulative Results of Operations                                    $194
Total Net Position                                                  $8,250
Total Liabilities and Net Position                                 $11,547



The accompanying notes are an integral part of these statements.




                                             9
               Food, Nutrition, And Consumer Services
                       Statement of Net Cost
                    for the Year Ended September 30, 2005
                                       (millions)

Strategic Goals:

Improve the Nation's Nutrition and Health:
Gross Cost                                                         $51,605
Less: Earned Revenue                                                   $29
Net Goal Cost                                                      $51,576

Total Gross Cost                                                   $51,605
Less: Total Earned Revenue                                             $29

Net Cost of Operations (Note 10)                                   $51,576



The accompanying notes are an integral part of these statements.




                                             10
                         Food, Nutrition, And Consumer Services
                          Statement of Changes in Net Position
                              for the Year Ended September 30, 2005
                                                 (millions)


                                                                   Cumulative Results     Unexpended
                                                                     of Operations       Appropriations

Beginning Balances                                                               $285             $8,579

Budgetary Financing Sources:
  Appropriations Received                                                           $0            $47,398
  Other Adjustments (recissions, etc.)                                              $0            -$2,511
  Appropriations Used                                                          $45,410           -$45,410
  Transfers In (Out) without Reimbursement                                      $5,168                 $0
  Other Budgetary Financing Sources                                                -$1                 $0

Other Financing Sources:
  Imputed Financing from Costs Absorbed by Others                                 $908                $0
Total Financing Sources                                                        $51,485             -$523

Net Cost of Operations                                                        -$51,576                $0

Net Change                                                                        -$91             -$523

Ending Balances                                                                  $194             $8,056



The accompanying notes are an integral part of these statements.




                                                    11
                Food, Nutrition, And Consumer Service
                  Statement of Budgetary Resources
                    for the Year Ended September 30, 2005
                                        (millions)

Budgetary Resources:
Budget Authority:
  Appropriations Received                                          $47,398
  Net Transfers                                                     $5,168
Unobligated Balances:
  Beginning of Period                                               $7,768
Spending Authority From Offsetting Collections:
  Earned
      Collected                                                        $79
Recoveries of Prior Year Obligations                                  $391
Permanently not Available                                          -$2,511
Total Budgetary Resources                                          $58,293

Status of Budgetary Resources:
Obligations Incurred (Note 12)
   Direct                                                          $51,157
   Reimbursable                                                        $28
   Subtotal                                                        $51,185
Unobligated Balance:
   Apportioned                                                        $526
Unobligated Balance not Available                                   $6,582
Total Status of Budgetary Resources                                $58,293
Relationship of Obligations to Outlays:
Obligated Balance, Net, Beginning of Period                         $3,048
Obligated Balance, Net, End of Period:
   Undelivered Orders                                                 $700
   Accounts Payable                                                 $3,240
Outlays
   Disbursements                                                   $49,902
   Collections                                                        -$79
   Subtotal                                                        $49,823
 Net Outlays                                                       $49,823

The accompanying notes are an integral part of these statements.




                                              12
                               Food, Nutrition, And Consumer Services
                                       Statement of Financing
                                    for the Year Ended September 30, 2005
                                                        (millions)

Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations Incurred                                                                   $51,185
  Less: Spending authority from offsetting collections and recoveries                       $470
Obligations net of offsetting collections and recoveries                                 $50,715
Net Obligations                                                                          $50,715
Other Resources
  Imputed financing from costs absorbed by others                                          $908
Net other resources used to finance activities                                             $908

Total resources used to finance activities                                               $51,623

Resources Used to Finance Items not Part of the Net Cost of Operations:
Change in budgetary resources obligated for goods, services and benefits
ordered but not yet provided                                                               $137
Resources that fund expenses recognized in prior periods                                  -$105
Resources that finance the acquisition of assets                                             $2

Total resources used to finance items not part of the net cost of operations                $34

Total resources used to finance the net cost of operations                               $51,589

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components not Requiring or Generating Resources:
  Revaluation of assets or liabilities                                                       -$1
  Other                                                                                     -$12
Total components of Net Cost of Operations that will not require or generate resources      -$13

Total components of Net Cost of Operations that will not require or generate
resources in the current period                                                             -$13

Net Cost of Operations                                                                   $51,576



The accompanying notes are an integral part of these statements.




                                                           13
                   FOOD, NUTRITION, and CONSUMER SERVICES
              FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                      (Amounts shown are in millions except as noted)


   Note 1. Summary of Significant Accounting Policies

A. Basis of Presentation

   These financial statements have been prepared to report significant assets, liabilities, net cost of
   operations, changes in net position, and budgetary resources for the Food, Nutrition, and
   Consumer Services (FNCS), as required by the Chief Financial Officers Act of 1990 as
   amended. They have been prepared from the books and records of FNCS in accordance with
   the Generally Accepted Accounting Principles (GAAP) hierarchy of accounting principles for the
   Federal Government.

B. Reporting Entity

   FNCS is under the jurisdiction of the Under Secretary for Food, Nutrition, and Consumer
   Services of the United States Department of Agriculture. FNS is headed by an administrator
   with overall policy formulated in the FNS headquarters in Alexandria, Virginia, and implemented
   through seven regional offices and 69 subordinate/satellite locations. State departments of
   education have responsibility for food programs serving children in schools, child care centers,
   and summer recreation centers. State departments of health, welfare, and agriculture usually
   have responsibility for programs providing food stamp benefits or supplemental foods. For the
   FY 2005 financial statement presentation, data classified as “Other” is primarily comprised of
   Nutrition Program Administration (NPA) appropriations. A detailed description of the FNS
   programs is contained in the MD&A.

C. Basis of Accounting

   FNCS records transactions on an accrual accounting and a budgetary basis. Under the accrual
   method, revenues are recognized when earned and expenses are recognized when a liability is
   incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates
   compliance with legal constraints and controls over the use of Federal funds. These financial
   statements include all funds for which the FNCS is responsible and were prepared in
   accordance with the GAAP hierarchy of accounting principles for the Federal Government.


D. Change in Accounting Estimates

  The grant accounts payable amount is the result of accruing the grant undelivered balance as of the end
  of FY 2005. Prior to FY 2005 FNCS used a model to record the grant accounts payable. FNCS
  developed a model for estimating and adjusting the fiscal year end grant accounts payable balance
  based on five years of the historical relationship between grant payables at fiscal year end and at grant
  close out. This model was used for more than a decade. The use of this model caused a discrepancy
  between the Statement of Budgetary Resources and the FACTS II (SF 133, Report of Budget
  Execution); therefore, FNCS now bases its grant accounts payable amount on the undelivered orders
  balance which is considered the best available and most conservative information at the end of the fiscal
  year.




                                                       14
                  FOOD, NUTRITION, and CONSUMER SERVICES
             FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                     (Amounts shown are in millions except as noted)


E. Accounts Receivable

  The $211 recognized as non-federal accounts receivable includes debts owed FNCS by
  individuals, businesses, States and local governments. The largest single component of this
  item consists of Food Stamp Program recipient claims. States establish claims against
  households to recover overissued Food Stamp benefits after they confirm that such
  overissuance has taken place. They are then responsible for pursuing collection of such claims.
  Collections, less an authorized State retention amount, are remitted to FNCS. The portion of
  total net realizable receivables consisting of Food Stamp recipient claims is the expected
  amount of such remittance from States. The data generated by the State systems of gross
  account receivables has been determined to be unreliable. Accordingly, FNCS does not know
  what the State gross account receivable is. FNCS does not have any alternative method for
  acquiring reliable State receivable information.

  FNCS estimates net realizable Food Stamp accounts receivable through a regression-based statistical
  model. This model estimates future collections by the States, which the States will remit to the Federal
  Government as of the end of the accounting period (Federal fiscal year) based on the actual Food
 Stamp
  issuance and net claims collections for prior years. The forecasting model draws its predictive power
  from the strong historical relationship between the level of Food Stamp Program benefit issuance and
  the level of recipient claims collections by States. Applying the model to actual data covering the
 periods
  FY 1984 through FY 2005, the model explains 96 percent of the variation in claims collections.
  Historically, one-year-ahead collections projected by the model have proved to be accurate within
  approximately 2 percent of actual net collections. Because the expected cash flow from collections of
  such claims beyond one year is not expected to be material, FNCS does not estimate collections after
  the initial year or discount the estimate produced by the statistical model to its present value.

  The Food Stamp Program has a system for monitoring and controlling program issuance called
  the QC system. It is an ongoing, comprehensive monitoring system required by the Food Stamp
  Act to promote program integrity. A statistically valid sample of cases, consisting of active cases
  and “negative case actions” (terminations and denials of benefits), is chosen each month. State
  officials review the sampled case records to measure and verify the accuracy of eligibility and
  benefits determinations, made by State eligibility workers, against Program standards for the
  month under review. QC errors detected through the review process include both
  underissuance and overissuance to eligible households and issuance to households that are not
  eligible for benefits.

  Because reliable data is not available addressing gross FNCS accounts receivable, the FSP QC
  estimate of FSP benefits overissued nationwide provide the best statistically valid estimate of
  invalid program payments. Fiscal Year 2004 QC error rates were announced in June 2005.
  Using this methodology, FNCS estimates the value of benefit overissuance in Fiscal Year 2004
  (the most recent year for which data are available) at $1.103 billion. Statement of Federal
  Financial Accounting Standards (SFFAS) #1 permits Federal entities to estimate its accounts
  receivable. The QC error rate overissuance estimate is considered the best estimate available.
  However, since this is an estimate of all FSP overpayments, the actual State gross account
  receivable amount would be lower but the variance can not be quantified. The amount of
  overissued food stamps is included in the total program cost of the Food Stamp Program as
  reflected in the Statement of Net Cost. A material amount of the estimate would be bad debt
  expense if the amount of this estimate pertaining to accounts receivable could be quantified.



                                                      15
                   FOOD, NUTRITION, and CONSUMER SERVICES
              FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                      (Amounts shown are in millions except as noted)

 FNCS does not receive information to calculate States’ QC liabilities for approximately 7 months after the
 end of the fiscal year, therefore, current information is not available for the FY 2005 financial statements.
 For FY 2004, four States were assessed liabilities for having excessive error rates for two consecutive
 years. The aggregate total of the liability was $ 2.28. The four States signed payment agreements in lieu
 of immediately repaying in cash. The agreements called for each State to invest 50 percent of its liability
 in program improvement activities. The remaining 50 percent of the liability was placed at risk pending
 future improved performance.


         The QC over Issuance error rate data for the past 3 years follows:

            Fiscal Year              Rate Amount                Total $ Bil.
            2004                     4.48 %                     $ 1.103
            2003                     5.04 %                     $ 1.080
            2002                     6.16 %                     $ 1.123




F. Grants and Program Benefits

  FNCS records grant obligations based on the grant awards and food stamp program benefits based on
  the issuance of benefits to recipients. Funds for FNCS grant programs and food stamp electronic
  benefits transfer (EBT) benefits are provided to States through a Letter of Credit process. This process
  allows the grantees or the EBT processor to draw on established credit balances, as needed, to pay
  expenses associated with their grants or food stamp EBT transactions at retailers. This allows FNCS to
  hold funds until the grantees need the funds to pay program expenses or until the food stamp EBT
  benefits are actually used. Expenses are recognized as grantees or EBT processors drawdown on the
  Letter of Credit.

G. Annual, Sick, and Other Leave

   Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year,
   the balance in the accrued annual leave account is adjusted to reflect current pay rates. To the
   extent that current or prior year appropriations are not available to fund annual leave earned but
   not taken, funding will be obtained from future financing sources. Sick leave and other types of
   nonvested leave are expensed as taken.

H. Retirement Plan

   FNCS employees participate in both the Civil Service Retirement System (CSRS) and the
   Federal Employees Retirement System (FERS). FNCS makes matching contributions to the
   CSRS total plan equal to 8.5 percent of pay, while contributions to the FERS total plan are 10.7
   percent of pay. For most employees hired since December 31, 1983, FNCS also contributes the
   employer's matching share for Social Security. FERS went into effect pursuant to Public Law
   99-335 on January 1, 1987. Most employees hired after December 31, 1983, are automatically
   covered by FERS and Social Security. A primary feature of FERS is that it offers a savings plan
   to which FNCS automatically contributes 1 percent of pay and matches any employee
   contribution up to an additional 4 percent of pay. FNCS makes these and other contributions to
   employee retirement plans as shown in the following table:



                                                       16
                    FOOD, NUTRITION, and CONSUMER SERVICES
               FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                       (Amounts shown are in millions except as noted)


                      FNCS RETIREMENT CONTRIBUTIONS FOR FY 2005 (in millions)
                               Type of Contribution                          Amount
      CSRS/Transitional retirement contributions-Civil Service                 $0.3
      FERS regular contributions                                               $6.4
      Thrift Savings Plan contribution                                         $2.5
      TOTAL                                                                    $9.2

     These contributions are reported as expenses in the Statement of Net Cost. FNCS does not
     report CSRS and FERS assets, accumulated plan benefits, or unfunded liabilities, if any,
     applicable to its employees. Reporting such amounts is the responsibility of the Office of
     Personnel Management's Federal Retirement System.

I. Recognition of Financing Sources and Appropriations Used

     FNCS receives the majority of the funding it needs to support its programs through annual and
     multi-year appropriations. FNCS recognizes appropriations as used at the time that program or
     administrative expenses are paid. FNCS recognizes appropriations expended for capitalized
     property or equipment as expenses when the assets are purchased. Appropriations used is the
     amount of appropriations expended during the current period to fund FNCS’ nutrition programs.
     This includes the NPA appropriation, which provides funds for salaries and administrative
     expenses.

     At the time grant awards are established, FNCS records obligations for the full amount of
     expected program expenses as unexpended obligations-unpaid (undelivered orders).
     Reductions in unexpended obligations occur as expenses are incurred by grantees. At year-
     end, grant obligations are accrued and reflected on statements as accounts payable. At grant
     closeout, the unused portions of grant awards are deobligated, increasing the unobligated
     balances and are shown on the balance sheet as part of unexpended appropriations.
     Unobligated balances available for future periods are also shown as unexpended appropriations.

J.   Fund Balance With Treasury Accounts

      The Fund Balance with Treasury (FBWT) is an asset account that reflects the available budget
      spending authority of federal agencies.




                                                      17
                    FOOD, NUTRITION, and CONSUMER SERVICES
               FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                       (Amounts shown are in millions except as noted)

     Note 2 Non-Entity Assets


Intragovernmental:                                                                   FY 2005
  Fund balance with Treasury                                                                      $12
  Investments                                                                                          -
  Accounts Receivable                                                                                  -
  Loans Receivable                                                                                     -
  Other                                                                                                -
Subtotal Intragovernmental                                                                         12
With The Public
  Cash and other monetary assets                                                                       -
  Accounts receivable                                                                              22
  Taxes receivable                                                                                     -
  Loan receivable and related foreclosed property                                                      -
  Inventory and related porperty                                                                       -
  Other                                                                                                -
Subtotal With the Public                                                                           22


Total non-entity assets                                                                            34


Total entity assets                                                                            11,513


Total assets                                                                $                  11,547




FNCS’ Non-Entity Asset, “Fund Balance with Treasury” consists of funds held in FNCS’ Suspense
Account and the Food Stamp Redemption Account. FNCS’ Accounts Receivable consist of FNCS’
Miscellaneous Receipts, Interest, Fines & Penalties, and Miscellaneous Receipts for Cancelled Years.




                                                    18
                      FOOD, NUTRITION, and CONSUMER SERVICES
                 FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                         (Amounts shown are in millions except as noted)

 Note 3. Fund Balance with Treasury

  Fund Balances:                                                                                    FY 2005
     Trust Funds                                                                  $                             -
     Revolving Funds                                                                                            -
     Appropriated Funds                                                                                  11,046
     Other Fund Types                                                                                         12
  Total                                                                                                  11,058


  Status of Fund Balance with Treasury:
  Unobligated Balance:
     Available                                                                                                526
     Unavailable                                                                                          6,582
  Obligated Balance not yet Disbursed                                                                     3,940
  Clearing Account Balances                                                                                    10
  Borrowing Authority not yet Converted to Fund Balance                                                         -
  Total                                                                           $                      11,058




 Note 4. Accounts Receivable,Net


                                          Gross            Allowance for           Accounts
                                          Accounts         Uncollectible           Receivable,Net
                                          Receivable       Accounts
    Intragovernmental                      $0                 $0                      $0
    With the Public                        $ 214              $3                      $ 211
   Total                                   $ 214              $3                      $ 211


 (1) See Note 1.E. for further explanation of FNCS’ accounts receivable activity with the public.




Note 5. General Property, Plant and Equipment

Property and equipment are depreciated over their useful economic lives, which average 5-10
years, using the straight-line method. For FY 2005 FNCS’ capitalization threshold for property
and equipment is $25 thousand. FNCS’ capitalization threshold for internal-use software is $100
thousand. FNCS owns no buildings or land. At year end, balances for Property, Plant, and
Equipment were as follows:




                                                          19
                             FOOD, NUTRITION, and CONSUMER SERVICES
                        FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                                (Amounts shown are in millions except as noted)

FY 2005                                       Useful                                                             Net
                                               Life                            Accumulated                      Book
Category                                      (Years)       Cost               Depreciation                     Value


Land and Land Rights                                    $          -       $                      -       $             -
Improvements to Land                                                   -                              -                      -
Construction-in-Progress                                               -                              -                      -
Buildings, Improvements and Renovations                                -                              -                      -
Other Structures and Facilities                                        -                              -                      -
Equipment                                      5-10                    4                              3                     1
Assets Under Capital Lease                                             -                              -                      -
Leasehold Improvements                                                 -                              -                      -
Internal-Use Software                           5                  30                                 5                     25
Internal-Use Software in Development                                   -                              -                      -
Other Natural Resources                                                -                              -                      -
Other General Property, Plant and Equipment                            -                              -                      -
  Total                                                 $          34      $                          8   $             26




  Note 6. Other Assets

                                                                                                              FY 2005
Intragovernmental:
   Advances to Others                                                                         $                                  -
   Prepayments                                                                                                                 -
   Other Assets                                                                                                              252
Subtotal Intragovernmental                                                                                                   252

With the Public:
  Advances to Others                                                                                                                 -
  Prepayments                                                                                                                        -
  Other Assets                                                                                                                       -
Subtotal With the Public                                                                                                             -


Total Other Asssets                                                                           $                              252



  FNCS’ “Intragovernmental-Other Assets” consist of Advances to Farm Service Agency/Commodity
  Credit Corporation for the purchase of commodities.




                                                            20
                       FOOD, NUTRITION, and CONSUMER SERVICES
                  FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                          (Amounts shown are in millions except as noted)

Note 7. Liabilities Not Covered by Budgetary Resources



  Intragovernmental:                                                                  FY 2005
     Accounts payable                                                        $                    -
     Debt                                                                                          -
     Other                                                                                         -
  Subtotal Intragovernmental                                                                       -
  With the Public:                                                                                 -
  Accounts Payable                                                                                 -
  Debt held by the public                                                                          -
  Federal employee and veterans' benefits                                                          8
  Environmental and disposal liabilities                                                           -
  Benefits due and payable                                                                         -
  Other                                                                                           11
  Subtotal With the Public                                                                        19


  Total liabilities not covered by budgetary resources                                            19


  Total liabilities covered by budgetary resources                                              3,278

  Total liabilities                                                          $                  3,297



 FNCS’ “With the Public-Other Liabilities” consist of Custodial Liability and Unfunded Leave.




                                                         21
                                  FOOD, NUTRITION, and CONSUMER SERVICES
                             FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                                     (Amounts shown are in millions except as noted)

Note 8. Other Liabilities

   FY 2005                                                      Non-Current       Current        Total
   Intragovernmantal:
      Contract Holdbacks                                   $           -      $      -       $    -
      Other Accrued Liabilities                                          4               -         4
      Employer Contributions and Payroll Taxes                           1               -         1
      Other Post-Employement Benefits Due and Payable                    -               -         -
      Unfunded FECA Liability                                            1               -         1
      Other Unfunded Employment Related Liability                        -               -         -
      Advances from Others                                               -               -         -
      Deferred Credits                                                   -               -         -
      Liability for Deposit Funds, Clearing Accounts                     -               -         -
      Contingent Liabilities                                             -               -         -
      Capital Lease Liability                                            -               -         -
      Liability for Subsidy Related to Undisbursed Loans                 -               -         -
      Accounts Payable from Canceled Appropriations                      -               -         -
      Resources Payable to Treasury                                      -               -         -
      Custodial Liability                                               22               -        22
      Other Liabilities                                                  -               -         -
   Subtotal Intragovernmental                                           28               -        28


   With the Public:
     Contract Holdbacks                                                  -               -         -
     Other Accrued Liabilities                                           6               -         6
     Accrued Funded Payroll and Leave                                    -               -         -
     Withholdings Payable                                                -               -         -
     Employer Contributions and Payroll Taxes Payable                    -               -         -
     Other Post-Employment Benefits Due and Payable                      -               -         -
     Pension Benefits Due and Payable to Beneficiaries                   -               -         -
     Benefit Premiums Payable to Carriers                                -               -         -
     Life Insurance Benefits Due and Payable                             -               -         -
     Unfunded Leave                                                     11               -        11
     Other Unfunded Employment Related Liability                         -               -         -
     Advances from Others                                                2               -         2
     Deferred Credits                                                    -               -         -
     Liability for Deposit Funds, Clearing Accounts                     12               -        12
     Prior Liens Outstainding or Acquired Collateral                     -               -         -
     Contingent Liabilities                                              -               -         -
     Capital Lease Liability                                             -               -         -
     Accounts Payable from Canceled Appropriations                       -               -         -
     Custodial Liability                                                 -               -         -
     Other Liabilities                                                   -               -         -
   Subtotal With the Public                                             31               -        31


   Total Other Liabilities                                 $            59    $          -   $    59




                                                               22
                 FOOD, NUTRITION, and CONSUMER SERVICES
            FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                    (Amounts shown are in millions except as noted)

Note 9. Program Cost and Exchange Revenue


    Child Nutrition

    Intragovernmental Cost                  $        12
    Public Cost                             $    12,216
    Total Cost                              $    12,228

    Intragovernmental Earned Revenue        $         -
    Public Earned Revenue                   $         -
    Total Earned Revenue                    $         -

    Food Stamp

    Intragovernmental Cost                  $        21
    Public Cost                             $    32,824
    Total Cost                              $    32,845

    Intragovernmental Earned Revenue
    Public Earned Revenue                   $       24
    Total Earned Revenue                    $       24

    Other

    Intragovernmental Cost                  $      201
    Public Cost                             $       80
    Total Cost                              $      281

    Intragovernmental Earned Revenue        $        3
    Public Earned Revenue                   $        1
    Total Earned Revenue                    $        4


    Women, Infants & Children

    Intragovernmental Cost                  $         1
    Public Cost                             $     5,215
    Total Cost                              $     5,216

    Intragovernmental Earned Revenue
    Public Earned Revenue                   $        (1)
    Total Earned Revenue                    $        (1)




                                            23
                FOOD, NUTRITION, and CONSUMER SERVICES
           FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                   (Amounts shown are in millions except as noted)

     Commodity Assistance Program

     Intragovernmental Cost                     $                856
     Public Cost                                $                179
     Total Cost                                 $              1,035

     Intragovernmental Earned Revenue           $                  2
     Public Earned Revenue                      $                  -
     Total Earned Revenue                       $                  2


FNCS’ intragovernmental costs are exchange transactions made between FNCS and another entity
within the Federal government. FNCS cost with the public are exchange transactions made between FNCS
and a non-Federal entity. FNCS’ intragovernmental exchange revenues are exchange transactions
made between FNCS and another entity within the Federal government. FNCS exchange revenues with the
public are exchange transactions made between FNCS and a non-Federal entity.




                                                24
                          FOOD, NUTRITION, and CONSUMER SERVICES
                     FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                             (Amounts shown are in millions except as noted)


Note 10. Program Cost By Segment


                                                                         Women            Commodity
                                                                        Infants &         Assistance
                                       CHILD NUTRITION   FOOD STAMP     Children           Program         OTHER       Consolidated Total


    Total Gross Cost                            12,228        32,845         5,216             1,035           281                51,605

    Less Earned Revenue:                             0            24                 -1              2             4                     29

    Net Goal Cost:                              12,228        32,821         5,217             1,033           277                51,576


    Net Cost of Operations                                                                                                        51,576




Note 11. Exchange Revenues

FNCS’ earned revenue from nonfederal parties consists of $24.2 from the state option food stamp
program.

On June 12, 1997, the President signed into law the Supplemental Appropriations Act, Public Law 105-
18. This law authorized the state option food stamp program (SOFSP). In this program, States issue
food stamp benefits through the Federal government for use in a State-funded food assistance program
for legal immigrants, and childless, able-bodied adults ineligible for the Food Stamp Program.

States operating a SOSFP utilize FNCS’ FSP infrastructure. That is, they utilized electronic benefits
transfer (EBT) issued benefits from FNCS which are transacted at FNCS authorized FSP retailers.
These benefits are subsequently redeemed through the Federal Reserve Banking (FRB) system.

Prior to issuance, States are required to remit payment to FNCS for the amount of the benefits issued as
well as reimburse FNCS for the costs of redeeming benefits. During fiscal year 2005, 3 States
participated in this program, which generated earned revenues of $24.2.


Note 12. Apportionment Categories of Obligations Incurred

     FY 2005                                                                Direct                            Reimbursable                    Total
Approtionment by Fiscal Quarter                               $                             51,157     $                        28   $                51,185
Approtionment for Special Activities                                                             -                               -                         -
Exempt from Apportionment                                                                        -                               -                         -
Total Obligations Incurred                                    $                             51,157     $                        28   $                51,185




Note 13.Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the United
States Government

Differences exist between FNCS’ FY 2004 Statement of Budgetary Resources (SBR) (as provided to the
Department for consolidation purposes) and the FY 2004 actual numbers presented in the FY 2006
Budget of the United State Government (Budget). These differences are summarized below:



                                                                       25
                    FOOD, NUTRITION, and CONSUMER SERVICES
               FOOTNOTES TO FISCAL YEAR 2005 FINANCIAL STATEMENTS
                       (Amounts shown are in millions except as noted)

          Description                        Budgetary Resources               Outlays
           2004 SBR                               $53,569                      $44,994
Less: Expired Accounts not                          $5,289
Included in Budget
Less: Financial Statement                                $453
Adjustment not Included in
Budget
Less: Differences due to                                  $4                         $4
Rounding
Budget of the U.S.                                   $47,823                   $44,990
Government


The $453 represents the FNS’ accounts payable model write-down. The model was developed to
estimate and adjust the fiscal year end grant accounts payable balance between grant payables at fiscal
year end and at grant close out. This adjustment is made to the Statement of Budgetary Resources and
is not included in the President’s Budget.


Note 14. Incidental Custodial Collections


Revenue Activity:                                                                          FY 2005
  Sources of Collections:
  Miscellaneous                                                                  $                      (19)
Total Cash Collections                                                                                  (19)
Accrual Adjustments                                                                                      12
Total Custodial Revenue                                                                                  (7)
Disposition of Collections:
Transferred to Others:
    Treasury                                                                                                 -
    States and Counties                                                                                      -
( Increase )/Decrease in Amounts Yet to be Transferred                                                       7
Refunds and Other Payments                                                                                   -
Retained by the Reporting Entity                                                                             -
Net Custodial Activity                                                           $                           -


FNCS’ FY 2005 custodial activity represents all accounts receivable activity related to canceled year
appropriations for interest, fines & penalties assessed and collected. For example, civil money penalties,
interest, retailer and wholesaler fines and penalties. (See Note 1E., “Accounts Receivable”, for further
disclosures on FNCS’ collection activities). FNCS transfers these types of collections to the Department
of Treasury. FNCS’ custodial collection activities are considered immaterial and incidental to the mission
of FNCS.




                                                                26
                      FOOD , NUTRITION, AND CONSUMER SERVICES
                 REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                              STEWARDSHIP INVESTMENTS
                               (Amounts shown are in millions)


Human Capital

1. A. Food Stamp Program

     B. Program Expense                                      2005

        1. Employment and Training                           $49

FNS’ human capital consist of employment and training (E&T) for the Food Stamp Program. The E&T
program requires recipients of food stamp benefits to participate in an employment and training program as
a condition to food stamp eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’
E&T program has placed 839,218 work registrants subject to the 3 - month Food Stamp Program
participant limit and 1,207,295 work registrants not subject to the limit in either job-search, job-training,
job-workfare, education, or work experience.


Nonfederal Physical Property

1.    A. Food Stamp Program

      B. Program Expense                                    2005

          1. ADP Equipment & Systems                        $22


FNS’ nonfederal physical property consist of computer systems and other equipment obtained by the State
and local governments for the purpose of administering the Food Stamp Program. The total Food Stamp
Program Expense for ADP Equipment & Systems has been reported as of the date of FNS’ financial
statements.


2.    A. Special Supplemental Nutrition Program for Women, Infants and Children

      B. Program Expense                                  2005

          1. ADP Equipment & Systems                       $17


FNS’ nonfederal physical property also consist of computer systems and other equipment obtained by the
State and local governments for the purpose of administering the Special Supplemental Nutrition Program
for Women, Infants and Children (WIC).



                                                     27
